Department of Health and Human Services
                OFFICE OF 

           INSPECTOR GENERAL 





           WAYNE STATE 

        UNIVERSITY CLAIMED 

      ALLOWABLE COSTS UNDER 

       RECOVERY ACT GRANTS



 Inquiries about this report may be addressed to the Office of Public Affairs at
                          Public.Affairs@oig.hhs.gov. 
                                         




                                                  Sheri L. Fulcher

                                             Regional Inspector General 


                                                    February 2013 

                                                    A-05-11-00096

                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices 



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at https://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable,
a recommendation for the disallowance of costs incurred or claimed,
and any other conclusions and recommendations in this report represent
the findings and opinions of OAS. Authorized officials of the HHS
operating divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY 


BACKGROUND

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), enacted
on February 17, 2009, provided $8.2 billion to the Office of Director of the National Institutes of
Health (NIH) to help stimulate the economy through the support and advancement of scientific
research. Of the $8.2 billion, the Recovery Act transferred $7.4 billion to the NIH Institutes and
Centers and to the Common Fund.

Recovery Act funds were used to award grants and cooperative agreements to research entities
including nonprofit and for-profit organizations, universities, hospitals, research foundations,
governments and their agencies, and occasionally individuals.

Wayne State University (the grantee), founded in 1868, is a metropolitan research institution
located in Detroit, Michigan. NIH awarded the grantee a Recovery Act grant in the amount of
$999,094 for tumor cell research. The grant budget period was September 30, 2009, through
August 31, 2011; as of June 30, 2011, the grantee had claimed $831,041 ($562,743 direct and
$268,298 indirect) under the NIH grant.

OBJECTIVE

Our objective was to determine whether Recovery Act costs claimed by the grantee were
allowable under the terms of the grants and applicable Federal regulations.

SUMMARY OF FINDINGS

Of the $355,923 in costs covered by our review, we determined that the claims were allowable
under the terms of the grants and applicable Federal regulations. However, the grantee claimed
Federal reimbursement for an item of equipment purchased for $26,375 without prior approval
from the awarding agency.

RECOMMENDATION

We recommend that NIH work with the grantee to encourage prior approval from NIH for
actions that could be considered a change in scope, including purchases of equipment with a unit
cost of $25,000 or more that were not included in the grantee’s approved budget.




                                                 i
GRANTEE COMMENTS

In written comments on our draft report, the grantee did not concur with the finding and
recommendation. The grantee stated that the purchase was for a real-time polymerase chain
reaction (PCR) to analyze cytokines proposed in the project. The grantee said that prior approval
from NIH was not required as the purchase of equipment did not alter the scope of the project.
Additionally, the grantee said that it processed the budget request internally, in accordance with
the Federal Demonstration Partnership’s Research Terms and Conditions for prior approval,
which waives prior approval by the sponsor when there is no change in scope. The grantee’s
comments, excluding attachments related to findings or issues not in this report, are included as
Appendix A.

NATIONAL INSTITUTES OF HEALTH COMMENTS

In written comments on our draft report, NIH did not concur with the OIG’s findings and
recommendation. NIH concurs with the grantee that the purchase of equipment did not
constitute a change in scope and prior approval was not required. NIH’s comments are included
in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the grantee and NIH comments, we concur that the item of equipment did not
constitute a change in scope and require NIH prior approval. However, considering changes
made by NIH to the definition of “change in scope” between its 2003 and 2011 NIH Grants
Policy Statement, that now describe the purchase of a unit of equipment exceeding $25,000 as a
potential indicator of a change in scope, we believe the stated recommendation remains valid.




                                                ii
                                                    TABLE OF CONTENTS 




INTRODUCTION ................................................................................................................... 1 


     BACKGROUND ................................................................................................................. 1 

       Federal Requirements for National Institutes of Health Grantees ................................. l 

       Wayne State University ................................................................................................. 1 


     OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................... 1 

       Objective ........................................................................................................................ 1 

       Scope.............................................................................................................................. 2 

       Methodology ................................ .................................................................................. 2 


FINDINGS AND RECOMMENDATION ............................................................................ 3 


     EQUIPMENT PURCHASES .............................................................................................. 3 

       Federal Requirements ....................................................................................................3 

       Equipment Purchases Lacked National Institutes of Health Prior Approval ................ 3 


     RECOMMENDATION ....................................................................................................... 3 


     GRANTEE COMMENTS ................................................................................................... 4 


    NATIONAL INSTITUTES OF HEALTH COMMENTS ................................................. .4 


     OFFICE OF INSPECTOR GENERAL RESPONSE ..........................................................4 


APPENDIXES 


     A: GRANTEE COMMENTS

    B: NATIONAL INSTITUTES OF HEALTH COMMENTS




                                                                      m
                                        INTRODUCTION 


BACKGROUND

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), enacted
on February 17, 2009, provided $8.2 billion to the Office of Director of the National Institutes of
Health (NIH) to help stimulate the economy through the support and advancement of scientific
research. Of the $8.2 billion, the Recovery Act transferred $7.4 billion to the NIH Institutes and
Centers and to the Common Fund.

Recovery Act funds were used to award grants and cooperative agreements to research entities
including nonprofit and for-profit organizations, universities, hospitals, research foundations,
governments and their agencies, and occasionally individuals.

Federal Requirements for National Institutes of Health Grantees

The allowability of costs incurred by institutions of higher education are determined in
accordance with the cost principles contained in 2 CFR pt. 220 (formerly Office of Management
and Budget (OMB) Circular A-21), Cost Principles for Educational Institutions, as required by
45 CFR § 74.27.

NIH provides additional guidance through the National Institutes of Health Grants Policy
Statement (NIH Grants Policy Statement). The Grants Policy Statement provides NIH grantees,
in a single document, the policy requirements that serve as the terms and conditions of NIH grant
awards. The Grants Policy Statement provides general information, application information, and
specifies the terms and conditions that apply to particular types of grants, grantees, and activities
that differ from, supplement, or elaborate on the standard terms and conditions.

Wayne State University

Wayne State University (the grantee), founded in 1868, is a metropolitan research institution
located in Detroit, Michigan. NIH awarded the grantee a Recovery Act grant in the amount of
$999,094 for tumor cell research. The grant budget period was September 30, 2009, through
August 31, 2011; as of June 30, 2011, the grantee had claimed $831,041 ($562,743 direct and
$268,298 indirect) under the NIH grant.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Recovery Act costs claimed by the grantee were
allowable under the terms of the grants and applicable Federal regulations.




                                                 1

Scope

We limited our review to costs the grantee claimed for NIH grant RC1CA146576 during the
period September 30, 2009, through June 30, 2011. During the review period, the grantee
claimed $831,041. We reviewed $329,548 in costs claimed by the grantee as of June 30, 2011.
Separately, we reviewed $26,375 in equipment costs purchased in November 2009.

We did not perform an overall assessment of the grantee’s internal control structure. Rather, we
limited our evaluation of the grantee’s accounting system to (1) obtaining an understanding of
internal control as it relates to the specific objective and scope of the audit, and (2) reviewing the
grantee’s financial audits performed by an independent auditor.

We performed field work at the grantee’s administrative office in Detroit, Michigan in July 2011.

Methodology

To accomplish our objective, we:

       reviewed applicable Federal laws, regulations, and other guidance;

       reviewed grant announcements, grant applications, and notices of grant award;

       interviewed grantee officials;

       reviewed the grantee’s independent auditor’s reports and management letters for fiscal
        years 2009, and 2010;

       identified expended funds in the grantee’s accounting records as of June 30, 2010;

       summarized costs by cost category from expenditure reports;

       verified mathematical accuracy of the expenditure reports;

       compared budgeted and actual expenditures;

       reviewed selected costs claimed under the grants for allowability.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




                                                  2

                               FINDINGS AND RECOMMENDATION 


Of the $355,923 in costs covered by our review, we determined that the claims were allowable
under the terms of the grants and applicable Federal regulations. However, the grantee claimed
Federal reimbursement for an item of equipment purchased for $26,375 without prior approval
from the awarding agency.

EQUIPMENT PURCHASES

Federal Requirements

Cost principles for Educational Institutions at 2 CFR 220, App. A, § J.18(b)(2) state that
"[c]apital expenditures for special purpose equipment are allowable as direct costs, provided that
items with a unit cost of $5000 or more have the prior approval of the awarding agency."
Pursuant to the NIH Grants Policy Statement (December 2003)1, in general, the Program
Director/Principal Investigator may make changes in the methodology, approach, or other
aspects of the project objectives. However, the grantee must obtain prior approval from the NIH
awarding Institute or Center for a change in scope. A change in scope is a change in the
direction, aims, objectives, purposes, or type of research training, identified in the approved
project. The grantee must make the initial determination of the significance of a change and
should consult with the Grants Management Office (GMO) as necessary. Pursuant to the NIH
Grants Policy Statement (December 2003), "[a]ctions likely to be considered a change in scope
and, therefore, requiring NIH awarding office prior approval include"the purchase of a unit of
equipment exceeding $25,000."

Pursuant to 2 CFR 220, App. A, § J.l8(a)(3), "'Special purpose equipment' means equipment
which is used only for research, medical, scientific, or other technical activities. Examples of
special purpose equipment include microscopes, x-ray machines, surgical instruments, and
spectrometers. "

Equipment Purchases Lacked National Institutes of Health Prior Approval

The grantee claimed $26,375 for the purchase of a real-time polymerase chain reaction. The cost
of this item of special purpose equipment exceeded $25,000 and was not included in the
grantee's approved budget. Therefore, this is an action likely to be considered a change in scope
under the NIH Grants Policy Statement (December 2003) requiring the prior approval of the NIH
awarding office. The grantee did not obtain NIH prior approval for the purchase because they
did not believe the scope of the project changed.

RECOMMENDATION

We recommend that NIH work with the grantee to encourage prior approval from NIH for
actions that could be considered a change in scope, including purchases of equipment with a unit
cost of $25,000 or more that were not included in the grantee's approved budget.

1 This version of the NIH Grants Policy Statement was effective for all NIH grants and cooperative agreements with
budget periods beginning on or after December 1,2003 through September 30, 2010.


                                                         3
GRANTEE COMMENTS

In written comments on our draft report, the grantee did not concur with the finding and
recommendation. The grantee stated that the purchase was for a real-time polymerase chain
reaction (PCR) to analyze cytokines proposed in the project. The grantee said that prior approval
from NIH was not required as the purchase of equipment did not alter the scope of the project.
Additionally, the grantee said that it processed the budget request internally, in accordance with
the Federal Demonstration Partnership’s Research Terms and Conditions for prior approval,
which waives prior approval by the sponsor when there is no change in scope. The grantee’s
comments, excluding attachments related to findings or issues not in this report, are included as
Appendix A.

NATIONAL INSTITUTES OF HEALTH COMMENTS

In written comments on our draft report, NIH did not concur with the OIG’s findings and
recommendation. NIH concurs with the grantee that the purchase of equipment did not
constitute a change in scope and prior approval was not required. NIH’s comments are included
in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the grantee and NIH comments, we concur that the item of equipment did not
constitute a change in scope and require NIH prior approval. However, considering changes
made by NIH to the definition of “change in scope” between its 2003 and 2011 NIH Grants
Policy Statement, that now describe the purchase of a unit of equipment exceeding $25,000 as a
potential indicator of a change in scope, we believe the stated recommendation remains valid.




                                                4

APPENDIXES 

                                                                                                                              Pagee I of 12
                                                                                                                              Pag


                              APPENDIX A: GRANTEE COMMENTS 


                                                                                                       om....-_
                                                                                                       om....- __
                                                                                                       51OOea.. ...
                                                                                                                ....
                                                                                                                   . . ­­
WAYNE STATE 	                                                                                          s.ioonOO_.o.AB
                                                                                                       s.ioonOO

                                                                                                       Dotnoil. ~ti...t.;_ u:za:! 

 UNIVERSiTy 	                                                                                          _ , (.I lJ  lJ))   ~_ 211 '


                                                                                                       F. .,
                                                                                                          ., (.I13
                                                                                                             (.I13)) 5 T1
                                                                                                                       T1_
                                                                                                                         _222S
                                                                                                       ....... _     . ! pglj l S7Y'B ..." 

~ 1 6 . 2011



_l..~
bp..a.lJ. , 
             ~                 

 F..- ...... s.n;"".
              s.n;"".

0 - . . oL ..... I   _ <>->ol 

n,.            01' _ _ _                    s.n......
                                            s.n......
O-"oL ....... s....
O-"oL.......      s.........
                       ..... 

2 n _ ! .........
           ......... A,_s.iool360 

a.;.,.p.. LlliaooH 6OoiI01 

a.;.,.p
JU:,, 	
JU:        Rop.-.OiA -ti--ll
           Rop.-.OiA-ti-- ll _ _ 

                                ...,, tt---...,v.
           W .,.. S.... U ..... ...                            c.-.. 1'<
                                                               c.-   1'<..
                                                                         .. RClC.
                                                                             ClC.-U_
                                                                                 -U_ ~            





w. _ _ :r- _                      -'- _               F---,. 25
                                                             25.. 10
                                                                  10112, _ _ - IJ"
                                                                               IJ"_
                                                                                  _ _..
                                                                                    _ ..                    ~              (JJ'SU)
 ~a-..IA_.C-.. ~~ .....                                                 a . - N ..   lICJ~UIll 76"
                                                                                                6"__




                                                                                                  "
                                                      b$26..J 7'I . . . - ..... _ _
                                                      b$26                                   ..J._ ......wMl - K - "
                               " 	• 	       or S9504
                                  ._wbooLo..o_-..a
                                                        _          - - ' F ...aitioo. _
                                                                   _   _ _ _ ..... _         ~.~'
                                                                                             ~. ~'_..,
                                                                                                  _..,~_
                                                                                                      ~_
                                                                                                       ~...    (F....o.) ...... '"




"W. R.             ...
l:o
W.oIo_rl'prloqH
       ........ _
             ... _ _ _ ••••_
                                             ____                 ~_.
                                                                  ~_ .	   n..NlliGnoot..Palo<yS,        _ _ _ _


           -no. PI   ""'Y- ~iI<DIK
                           ~iI<DIK"'     n..~.. _ _..
                                  "' ''' n..~     _ .. or_~ DjrlwlproJen
           0/0;""""-- H . . - . rlwI _ _ _ ehra         ... prior I ; oral frrnto rlwI NIH avowdUsg

                                                                                                                             0_
                                                    ehra...
           otpc.for a d . an
                          anpp ... rlwI diJ. -0", ".". ~rGMVC'1t ar..-..z, or ...    ..._
                                                                                        _ ~ _
           .,..,tilJile
           .,..,tilJile   a   .izrtiJic-J cloGnp fir-           rlwI aiwu, obj«m-
                                                                           obj«m-.. .". _                     Dj rlwI _
           prajen~
           prajen~   _

_    .....-
<., ....-- ... ,
          . ood~_..




-P-L n..PI...
                     1 iao.""";
                          .!_"~
                                   _

                                        ,. . _. ._. . .
                                        (PI), .....


                                   , . ,.
                                                      ~

                                                n...._ I Z'

                                             l. . _
                                                         Z'••
                                                                 (_

                                                                                       . . . __
                                                                       EsIoiIoi.. I) ...,.
                                                                       EsIoiIoi
                                                                    .w_.- .... ___ "' .....
                                                            · ........
                                                                       ~,




                                                              ........•• .. ~..
                                                                                             r..- . ......
                                                                                                    ......__
                                                                                                          __
                                                                                                           ~
                                                                                                               PCJl ..

                                                                                                      - . l _ NIH 
_ _
                                                                                         • .. .u...r..- ... _
                                                                                                                          ~

                                                                                                                      n...t..o

                                                                                                                    .... "' .... 

                                                                                                                                   Page 2 of12




Our Sponsored Progr Prograam Administration (SPA) department approved and processed th   thee rebud
                                                                                              rebudgget request
(see Exhibit II II)) in accordance with the Federal Demon
                                                    Demonstra
                                                           stration
                                                               tion Partnership
                                                                    Partnership's
                                                                                's (FDP) Research Terms and
Condition
Con                                              prioor approval by the spo
     ditionss for Prior Approval wh ich waives pri                       spon
                                                                            nso
                                                                             sorr when there is no change in
scope
sco pe.. Accordingly, we do not concur with the recommendation that we mu    musst refund N IH the equipment
costs of$26,375
      of$26,375..


Travel Expenses
We do not concur with the findings and recommendations. The NIH Grants Policy Statement stat                          tates
                                                                                                                         es that
"tr
 trave
     avell expe
           expen  nses are a ll llowable         direcct cost if the travel provid
                                  owable as a dire                          provideses a direct benefit 10 th   thee project".
According to the PI    PI,, th
                            thee travel costs re
                                              rellate to a g raduate research assistant (ORA) w ho was ass   assiign
                                                                                                                  gned ed to his
lab to work o n this grant. Her sa      sallary was charged to the University
                                                                       University's
                                                                                 's ge
                                                                                     gennera
                                                                                          erall fund acco
                                                                                                     account
                                                                                                          unt # 133550 (see
Exhibit ill ill)) . Accordingly, no time a nd effo effort
                                                        rt for th
                                                               thee ORA was charged to the grant. Per the PI     PI,, the ORA
worked on th is grant along wi th two o ther post-doctoral fellows . The ORA atten                    attend
                                                                                                           ded the Autum
Immunology
Immunol     ogy conference (see Exhibit UI        UI)) where the s he participated in the poster pre   prese
                                                                                                          sentation
                                                                                                             ntation and the
rest
re st o f the conference. Accordingly
                                 Accordingly,, the tra
                                                     trave
                                                        ve l costs incurred were a direct be nefit to the pr projec
                                                                                                                ojectt and we
do not co  concur
              ncur with the recom  ecomm me ndati
                                            ndation
                                                  on that we must refund NIH th      thee travel and F&A cos   costts tota
                                                                                                                         otaling
                                                                                                                            ling
$ 1,45
    ,450.
       0.

We tru
    trust
       st that you will find our respo
                                    esponnse acceptable. Should you have a ny que
                                                                              quest
                                                                                  stiio ns or wish to di
                                                                                                      disc
                                                                                                         scu
                                                                                                           uss
this matter further
              further,, plea
                        please
                             se do not he  hess itate to co
                                                         contact
                                                            ntact me at (313) 577-6802 or via email at
chafner@
chafner @ wayne
          wayne..edu
                  edu.. We looookk forward to receiving your final report.

Thank yo
      youu in advance for yo
                          your
                             ur consideration.


Sincerelly,
Sincere


Carollyn P. Hafner
Caro        Hafner,, C IA
                       IA,, CBA
Assistant Vice President
Office of Internal Audit
Wayne State Univniversity
                   ersity




cc:             Barton,, Audit Manager, DHHS ora
          Mikee Barton
          Mik
                Ratner,, Vice President of Re
         Hilary Ratner
         Hilary                                        earch.. WSU 

                                                  Ressearch
         Louis Lessem
                Lessem,, Vice Pre                              Counsell, WSU 

                                  Pressident and Genera l Counse
         Ronald Br
                 Brow
                    own n, Senior Vice Pre  Press ident of Academic Affairs and ProvostProvost,, WSU 

         Valerie Pari
                 Parissi, Dean
                          Dean,, ScSchhool of Medicine, WSU 

         Rick Nork, Vice President of Finance & Busine       Business
                                                                    ss Operations
                                                                            erations,, WSU 

         James
         Jam es Barbrel
                Barbrel,, As
                           Assoc
                               sociiate Vice Pr Pres
                                                   esid
                                                     ident
                                                         ent and Contro     er, WSU 

                                                                  Controllller,
         Gail Ryan
              Ryan,, Assi
                     Assisstanantt Vice Pre
                                         Press ident
                                                ident,, Spo
                                                        Spon nso
                                                              sorred Program Administration
                                                                                Administration,, WSU 

         Marlene Ernrno,
                      o, Senior Dir Direc
                                        ecttor
                                            or,, Sponsore
                                                        soredd Program Administration
                                                                        Administration,, WSU 

         Venuprasad Poojary
                       Poojary,, Principallnvesl
                                   Principallnvesliga       tor, WSU 

                                                         igator,
         Thomas Cava
                  Cavalier
                        lier,, As
                               Asss istant General Cou Coun  nsel for Compliance, WSU 





                                                           Page 2 of2
                                                                                                                                                                          Page 3 of12



                                                                                                                                                 EXH IBIT I




                                                                                       ;
          eppendorff
          eppendor                                                         ;-                       Eppendorf Nor
                                                                                                                North
                                                                                                                   th Am
                                                                                                                      Amer
                                                                                                                         er 1 ca. In
                                                                                                                                  Incc

                               'lOS~ 00
                   -NO"hAmC"C'~'lOS~
                                                                                                    One Cant 1 ague Road, POBox 1019

                                                                                3\
                                                                                                    Westbury,          NY 11590 -0 207 USA
                                                                                                    516-334-7500                    FAX 516 - 334-7506

                                                                                                                                                .

                   8.n 1D   .ddf.,...
                            .ddf.,.                                                               INVOICE
                 WAYNE STATE UNIVERSI~CE,~ED 
                                                    invOIce No    J 0 .1.

                 ATT ACCOUNTS PAYI)#S>!~UR>'· H ENT ~                                             4000188094 /            11 / 18 /2009
                 PO Box 9056 
                                                                    O rd.r no Id et.
                 DETROIT MI                48202 
                                                S398701 11/16/2009
                                                                                                  Fle'.r onee
                                                                                                  Fle'.ron ee no (dat_
                 USA                              ·09        NOV 25   1'"12 12
                                                                                                  P0493868
                                                                                                  O.lI .... ry not. no Idet.

                                          . _ _, '\C(\\l\0..,)d-­
                                                 '\C(        )d-­                                 81073024 /         ll/17/2009


                 4107621353                                                                       T ..m, 0 1 Payment
                                                                                                  Net 30
                 ShIp to ,dd,
                         ,dd,••
                              ••,,                                                               T.rrms of D.llv.r.,
                                                                                                 T.        D.llv.r.,

                 WAYNE STATE UNIVERSITY 
                                                         FOa 0
                 CENTRAL RBC/SCOTT HALL                                                          Shippiing Conchuon'
                                                                                                 Shipp
                 KARNMANOS/540 E CANFIELD                                                         PPD ground
                 1 10 E WARREN AVE/RF# P0493868                                                  Forw.rd••
                                                                                                 Forw.rd ••
                 DETROIT - MI 48201                                                              JlBF FREI GHT SYS
                                                                                                               SYS'I'EM
                                                                                                                   'I'EM                  INC
                 USA
                                                                                                 F"         # 11 - 2994494
                                                                                                 D U·N-S # 15 208
                                                                                                              208·· 8'42




                                                                                                                                                       Cur,...
                                                                                                                                                       Cur, ...".,
                                                                                                                                                               "., USO
         Item               Mece.;'1                                                                                 s ••••    D,u..
                                                                                                                               D,u .."t
                            a ...
                              ...nt'ty
                                  nt'ty              Price        PrIce UnIt                                                                                  IlI.mount
         00000 1            950021225                MCEP R EALPlEX 2 5 SYSTEM W f LAPTOP                              1 GL2 1 GA4
                                               38.22500           1 _ EA    O!sc
                                                                            O! scoJo!
                                                                                 oJo!__'!!...~
                                                                                       '!!...~   _ _ _ _ }.l~ _ _ __
                                                                                                                  __                                    26,375 25




                Per the P I,                thii s equipment is a real
                                            th                    real-- time PCR used to analyze
                cytokines proposed in the project. T his purchase did not alter the scope of the project.
                The data generated us
                                    usiing th is equ
                                                  equiipment are now pub
                                                                       publlished
                                                                             ished..




Office of I nspecto
Offi        nspectorr Genera
                      Generall Note - T he de      delleted text has been redacted
because it is persona lly id
                          ident
                             entiifiab
                                  fiabll e infonllat
                                            nfonllatiion.
                                                                                                                                        Page 4 of 12




                                                                          r       •




                                      ad d S & H Cat p r e-ps1d numbe r 950002212 


                             95002021 1 
            MASfERCVClER EP AEAlPLElI 2 S                              lOll 10"4
                                 , "
                             PARTS ONlY,NO':' :OR THIR!I       PAATY SALES
        {)(_lOO3            9500110211               MAST£RCVCLEA EP REALPlEX 2 S                               l OLl lGA 4

                                            "
                            PARTS ON!..Y. NOT FOR THIRD ?AATY SAL2S 

                                                  Batch Y2J 4. SSS? 


        "'"''               95OOO7S05               LAPTOf' DELL REALPLE)(                                      lOl2 1(i A4

                                         "
        """'"               950007620               Dol "",U'::., mouse lor rea/pie,                            lOll 10"4


        R.""no"u by         C h.~ .
                                                                                  " ....'n.nu loy   EFT   o.   ACH
        Epp. ndOff ~ ""h Am.nu. Inc                                               1>."10<",- Bank f, u ll Co A....'oc .
        PO 110.1 3216
                                                                                                                     NY 10005
        .. . .. ... k NJ   0710 1 32 75 



                                                                                                                                CUSTO ~ E R   COpy




Office of Inspector Genera l Note - The deleled text has been redacted
because it is personally identifiable information .
                                                                                                Page 5 of 12




                                                      £ppendort North     Amer~ca,   Inc
                                                      One Cantlague ·Road, P a       Box 1019
                                                      Westbury , NY 1159040207 USA
                                                      516·334-7500        FAX 516-]14. -750 6




                                                1,,,,olC'. I D.I.
                                                 4000186094 /       11/18/2009




'om   M.'. ... I
      Qu.n",y
      _ _. '_E. . ._
                       ~   ..
                       o.le,,,,ho"
                                     P"e- Un"                                                   Amoun!




                                                                                           26,ll~ l5
                                                                                           U ,]75 Z5
                                                                                                Page 6 of 12




                                                      £ppendort North     Amer~ca,   Inc
                                                      One Cantlague ·Road, P a       Box 1019
                                                      Westbury , NY 1159040207 USA
                                                      516·334-7500        FAX 516-]14. -750 6




                                                1,,,,olC'. I D.I.
                                                 4000186094 /       11/18/2009




'om   M.'. ... I
      Qu.n",y
      _ _. '_E. . ._
                       ~   ..
                       o.le,,,,ho"
                                     P"e- Un"                                                   Amoun!




                                                                                           26,ll~ l5
                                                                                           U ,]75 Z5
                                                                                                                                                                  Page 7 of12


Zimbra:                                                                                                                                                              Page I of2
                                                                                                                                                            EXHIBIT \I
Wayne Connect Communication & Collaboration Suite


 FW: Budget Justification for Rebudget IRC ! CAI46576-01 (Index                                                        Tuesday, January 19, 20 J 05:03:01
 300274)                                                                                                                                              PM
            From:
              To:
              Cc:
 Attachm e nts : rebudget 01-19-10 - _                - NIH Challenge RCI - RFAOD09003. xls (223.3 KB )
                     Budget_Justification 01-19-10 lor Rebudgct I RC ICA 146576-0 I.doc (32.3 KBl

  Please process rebudget request for 300274. Thanks.




  -

  Karmanos Cancer Institute
  5th Floor Prentis, PR05RA



  Confidentiality Notice: This email message, including any attachments , is for the sale use of the intended recipienl(s) and may contain confidential andlor privileged
  info(mation . If you are nol the intended recipienl(s), you are hereby notified that any dissemination , unauthorized review, use, disclosure, copying , or distribution 01 the
  contents of this email and/or any materials contained in any attachments is prohibited . If you have received this message in error. or are not the intended rec1pient(s ).
  please immediately notify the sender by email and destroy all copies of the original message, indudlng attachments.




  ~~~~!'!!!'iUstifu:ati')n                        for Rebudget lRC1CA146576-01 (Index 300274)

  « rebudget 01-19-10 - _                     - NIH Challenge RC1 - RFAOD09003.xls» « Budget_Justification 01-19-10 for Rebudget
  1RC1 CA 146576-01 .doc»


  From :
  Sent;                         , 20109:59 AM
  To:
  Subject:                             i   for Rebudget lRClCA146576-0l


  Thanks


   From :
  Sent: Tuesday, January 19, 2010 9:58 AM
  To :
   Subject:         RE: Budget Justification for Rebudget lRC1CA146576-0l


   Here's a breakdown of supplies..

   Supplies for Year 1 ; 33345
   Antibodies 3500
   F ACS sorting 3000
   Cell purification 4000



https://connect.wayne.ed u/zimbra/pub!ic/frameOpenerHe! per.j sp ?id=3&async=true                                                                                       1120/2 0 10


 Office of Inspector General Note - The deleted text has been redacted
 because it is personally identifiable infonllation.
                                                                                                                                                       Page 8 of 12


                                                                                                                                                          Page 2 on


  Molecular biology reag ents 5000 

  Biochemical reagen ts 3500 

  Cytokines and growth factors 3000 

  Tissue CUlture supplies and centri fuge tubes 6345 

  Synthetic peptides and in vitro T eel! stimulation 5000 


  Supplies for Year 2 = 58725 

  Antibodies 7500 

  FACS sorting 8000 

  Cell purification 5000 

  Molecular biology reagents 10225 

  Biochemical reagents 8000 

  Cytokines and growth factors 5000 

  Tissue culture supplies and centrifuge tubes 10000 

  Synthetic peptides and in vitro T cell stimulation 5000 

   c< File. rebudgel 01-19-10 - _         - NIH Challenge Ret - RFAOD09Q03.xls» <<: File: BudgeLJustlfication 01-19-10 fOf 

  Rebudge\ , RCICA 146576-01.doC"'>'> 





                          • '''''"~_ J()I Rebudget lRCICAH6576-01


  « File: Budget_Justification for Rebudget lRC1CAI46S76-01 .doc»                              «File: rebudget 01·15-10 . _                    . NIH Challenge 

  RC 1 . RFAOD09003.xls» 


                           change.
                              longer working here, he has discontinued due to his mothers II I health. I have replaced him With Or.
                                 is 40K pr year




                             " ' ' ' ' ' . ' ' ' ' ' ' ' ' ' IRCIU.1~6576-01

  See attached 

  « File: Budget_JUstification for Rebudget 1RC1 CA1 46576-01.doc » 



   PreAward  SpeCialist 

  Wayne State University 

  Ka rmanos Cancer Institute 

  11 0 East Warren Avenue - 5th Floor 





   Cunfidtnti 31ily Noti(f: This email menage, including Rny Alt,,~hn'tn l s. is fur Ihe Wit U$e of Ihe inlr nded r tti pient(sj and may ~o"l ai n
   <onfidtl!lia l and/or I'rivil egfd In formallon. If you Mt nOll he intended rttiplenl(S), yo u an hueby no tWltd t hai any diJst minali(l". "n~uth ori~.~d
   .evie.... use. disclosure Or di str ihull on of this ern~iI and any In . le.iRII to ntained in any . n ac h menlS is prohibited. l f )·o u nN:ive Ihil mtSs~l!. hI
   c. ro r. (I. are nOt the i n t.nd~d . «ipienl!s). plusc immcd iudy noti fy th e Stndn by t mRil and destroy aU copi.. of the orig ina l me ssage. ;ndudin!!
   Rn~chmtnt~.




https:llco nncct.waync.cdulzim br alpublic/fram eOpenerH el per.jsp?id=3&async= truc                                                                        112012010

Office of Inspector Genera l Note - The deleted text has been redacted
because it is personally identifiable information .
                                                                                                                                                                      Page 9 of12


    ,. <                                                                                                                                   EXH IBIT II


    REBUDGer 01.19.10 lHC

           DETAILED Bl,IDGET
                                                                                                                                         08/3 1/ 11


                 "/WE




                                          SUBTOTALS                                                  /      148, 114  1   35,399             183,513/
    CONSULTANT COSTS
                                     0                                                           0
                                                                                                                                                      0

    eQUIPMENT (Itemiu) 

    MCEP REALPLEX 2 S. SYSTEM W/tAPTOP                                                                                    26,375 

    SORVALL RT1 CENT 16 /20 TC PKG                                                                                         5,985 

     CLASS II A2 6 115V PKG                                                                                                8,220
                                                                                                                                              40,580
    SUPPUES (II~miza by category) 

      A ntibodies                                                3,500               Cytokines and growth tal              3,000 

      FACS sorting                                               3,000               TIssue culture supplies 2             6,345 


                                                                                                                           5'OO~1

      Cell punfication                                           4,000               Synthetic peptldes and il 

      Molecular biology reagents                                 5,000                        0
      Biochemical reagents                                       3,500                        0

                                                                                                                               O·             33345
    TRAVEL
                                            Domestic travel for Plio altend scientific meeting                             5,000                5000
    PATIENT CARE COSTS                   I INPATIENT                                                                           0                      0
                                         IOUTPATIENT                                                                           0                      0
    ALTERATIONS AND RENOVATIONS (I/:smile bycolfJgory)
                                                                                                                               0                      0
    OTHER EXPENSES (1l8mfz& by cEllegory)
      Publication costs                                         2,000                                                          0
      Animal shipping , breeding , and housing                 65,000                                                          0
      Core Services                                            13,000                                                          0               80,000
      0                                                             0
     SUBTOTAL DIRECT COSTS FOR INITIAL BUDGET PERIOO                                                                                 $      342, 438      1
    CQNSORTIU/INCONTRACTVAL              I DIReCT COSTS                                                                        0             156.966
    COSTS



     SBIRISTTR On ly: FIX~D FEE REQUESTED
     PHS 39B (Re\'_05101)
                                          FACILITIES AND ADMINISTRATION COSTS

     TOTA~ OIRECT COSTS FOR INITIAL BUDGET PERIOD


                                                                         Paga-
                                                                                    (llam 7., , ... P.."i
                                                                                                                 --            0
                                                                                                                                     S      499,405/

                                                                                                                                          Fo~   Paga4
       Number pilges consecutively al the bottom throtJghoullhe application. Do not use 6uffiKes such 8S .~a. 3~.,:
                                                                                                                                                              )   .




Office of Inspector General Note - The deleted text has been redacted
because it is persona lly identifiable infonllation.
                                                                                                      Page 10 of 12



     "   "
             Budget JUs tificatio n for Rebudget lRC1CA146576-01

             Personnel: 

             ~._, Ph.D., Principal Investigator (effort                       =6.00 months calendar) 

             ~nsl'6re""1'Or"'overseein9 the entire scope of the research proposed in the 

             application. Including performing                             data, design experiments, 

             reporting, and publication of the results. Dr.               • _         is an ' Assistant 

             Professor at Wayne State University. 


             _              , Postdoctoral Fellow (effort = 12.00 months calendar) will perform the
             experiments.

             ~, Postdoctoral Fellow (effort:" 12.00 months calendar) will perform the
             ~
             ~, Resea rch A ssistant (effort                   = 12.00 months ca lendar) will maintain
             ~s (breeding , genotyping , etc.) and also perfonn routine lab work such as .
             maintenance of cell lines, plasmid isolation, elc.

             Eq uipment: $40,SSO/year one only 

             Funds for purchase of MCEP RealPlex 2 S System w/Laptop includes jnstallation, 

             training and shipping, $26,375; SorvaURT1 Cent 16120 TC package, $5,985; Class II A2 

             6 115V Package, $8,220; 


             Travel: $5,OOalyeer 

             Funds are requested for travel for PI and Postdoctoral Fellow to attend one national 

             meeling, and PI and Research Assistant to attend one local meeting to Include air fare, 

             lodging, conference fees, and per diem al 35,000 total cost per year. 



             Supplies: $33,3451year 

             Funds for supplies include: Antibodies for immunoblotting, ELISA and FACS analysis 

             ($3,500) : FAGS sorting expenses (53,OOO): Cell purification kit such as T cell enrichment 

             columns ($4,000): Molecular biology reagents: enzymes and kits ($5,000): Biochemical 

             reagents for immunoblotling , immunoprecipitalion , films, and general chemicals 

             ($3,500): Cylokines and growth factors ($3,000); Tissue culture materials: culture 

             medium, FBS, culture flasks and centrifuge tubes ($6,345); Synthetic peptides for mouse 

             immunization and in vitro T ceJl stimulation ($5,000). 


             Other Expenses: S15,OOO/year 

             Publication cost is requested for a peer-reviewed publication at $2 ,000 per year. Funds 

             are also requested for Proteomics Facility Core at $13,000 total cost per year for 

             examining ubiqultlnation of TIEG1 and the role of tyrosine phosphorylation in regulating 

             receptor mediated ublquitination .. 


             Animals shipping, breeding, and hQusing: $65,OOO/yea r 


             Mice species include T1EG 1-1- (from Mayo Clinic): 200 cages/year 

             C57BL6 control mice (Jackson laboratories): 250 !Y3ges/year 

             Tyk2-1- mice (Miyazaki University, Japan): 100 cages/year 

             Foxp3 GFP.KI mice (Harvard Medical School): 100 cages/year 

             Rag-/- mice (Jackson laboratories): 50 cages/year 





Office of Inspector Genera l Note - The deleted text has been redacted
because it is personally identifiable information.
                                                                                                                                 Page 11 of12


    W"YN~ STArE
    UNIVERSITY                                                                            Grantlfund   Authcriza~on IND. .            171641




    NI HfNallona l Cancer Institute




    Role ofTlEG11n F01lp3+18f1 dWe/opmeni ,nd tumor progresdotl




                                            .....
                                             »"




    Dr.            and Delln _ School of Medicine o r hiaJhe, luthorlzed representative


                                                                                                               ... 't£
    $499,405.00




     .         .
    . .-­  "




    GFA Issued to proeets rehudget pe r request.




    This budget period Is 09l30109·0B/31110




    #(19071210
                                                                                              """__-1~~~~______~o~"~'o
                                                                                                                flYPIi NAIoI!I        (1),0,T


    ...
    AD
          ,,'­
                                                                                                       8PONSO!'I«II'!ICIG_~l AAl1ON




Office of Inspector Genera l Note - The deleted text has been redacted
because it is personally identifiable information .
                                                                                        Page 12 of 12



  WAYNE STATE VNIVERSITY

    - SPONSORED PROGRAMS ADMINISTRATION                                                 BUDGET DATA
AUTHORIZATION TO ESTABUSHfTRANSFER BUDGET AL.LOCATIONS



~"
1/2012010
            I 171647 I
               ~.oo.        .~

                           300274
                                            ' UNCI
                                           2Y211
                                                     OIlG COPe.
                                                     06C921
                                                                          .-~
                                                                           22
                                                                                         FMS GRANT COOl!
                                                                                              2'1'21
ITeMS OF EXPENDITURE                      ACCOUNT                 AWARD
                                           CODE       DEBIT               CREDIT         CUMULATIVE

COMPENSATION                                611         36914.00                            148,114.00
FRINGE BENEFITS                             621           7043.00                             35,399.00
STIPENDS                                   7212
EQUIPMENT                                   711         40,580.00                             40,580.00
SUPPLIES                                    721         33346.00                              33346.00
TRAVEL·OUTSTATE                            7712                                                5,000.00
TUITION                                    72111
CONSULliNG SERVICES                        72132
PATIENT CARE                               721H3
RENT                                       72171
OTHER                                       721                            104,000.00         BO,GOO.OQ

OFFICE SUPPLIES -A-21 ITEMS ••            721
OFFice SUPPLIES                            72161
RESEARCH SUPPUES                           72162
SUBCONTRACT Unlv College Dublin           721H11

PURCHASE SERVICES                     I    721E4
IRBFEES                                721YC


REVENUE                                    5401                                           ~99,4D5 . 00

INDIRECT COST          52.0%MTDC            1111                            13883.00        156966.00

                              TOTAL             >     111883.00            111,883.00
                                                                                                           I
Jo"rnal Vo"ch"r:   J     0\ 00 b I L
                                                                                                                            Page 1 of2



APPENDLX B: NATIONAL INSTITUTES OF HEALTH COMMENTS 


           DEPARTtO\ENT Of HEALTH II:. HUMAN SERV\C£S 	                                     Publoc Htahh S.,....


                                                                                            Nelio,,'1 Intl;IIII" 01 Hulth
                                                                                            Btlh..da. M.,v!.nd 20892




   TO; 	          Sheri L. I'u!chl.'r
                   RC:l:ionallnsfX't=\or Gcrn:r.i! for AU<li\ Services

   FRO""!: 	       Oil'\:~lOr.   Nmional Instituws ofllcallh

   DATI!:           JAN - , 2013
   SU BJECT: 	 Nil! Responsc!O OllieI.' of Inspector Gcncrnl Dmli Report. 1J'(,)'ne S,alt' Ullin'rsil}'
                  Cfl,;/IIN/,rII"\1"ub!" ,-,,.'IS Ulld", R('mlw)' Ac, G"<lIII.~ (A·(jj-/I.OOU<)6)

   Anachcd are I:cncrnl 1."0'"'111.'015 from the Nmion~1 Instilutes of Ik;Lilh in r,,:spol1sc \0 Ihe Omce
   of lnspttlor Gcncml urali report. WU)"III: Sill'!.' U"i,..,r~·il)' ('lui",,'" AII",,..,bh· C"Slt Uncl,-,.
   R,'..","('r)" , leI Gral/ls (A-Oj .. , '·00096).

   We "ppn;c;lItc the: opportunity 10 "" ' ie" a.nd COllll"e"l un the (lndl rcpol'1. StlVul<l you haw"
   questions or tollttms regarding ollr comments. plc!lSC tomatt l-kredilh Stein in the Office or
   ManJI:CmCnl Assessment at 301-102-110482.


                                                 lsI Francis S. Collins, M.D., Ph.D.

                                                       FI1lru;is S. Collins. M.I>.• Ph.D.

   Auachmcnt
                                                                                                     Page 2 of2




The National Institutes of Health (NIH) appreciates the review conducted by the DIG and the
opportunity to provide clarifications on this draft report. The NIH respectfully submits the
following general comme nts.

DIG FIN DING:

Dflhe $355,92] in costs covered by our review, we dctennined that the claims were allowable
under the tenns of the grants and applicable Federal regulations. However, the granlee c laimed
Federal reimbursement for an item of equipment purchased for $26,375 without prior approval
from the awarding agency.

NIH RESPONSE:

The NIH does not concur with the DIG's finding that an item of equipment purchased by the
grantee required prior approval nor wi th the corresponding recommendation that NIH work with
the grantee 10 encourage prior approval for actions that could be considered a change in scope,
including purchases of equipment with a unit cost of$25,000 or more that were not included in
the grantee's approved budget.

As s~ified in the NIH Grants Policy Statement (NIHGPS), a term and condition of all NIH
grant awards is that grantees are permitted a certain degree of latitude to rebudgel within and
between budget categories 10 meet unanticipated needs (see NIHGPS 2003, Changes in Project
and Budget http://gmnts.nih.gov!grantsipolicy/nihgps_20031NIHGPS]art7.htm). Prior
approval is req uired for a change in scope: that is, a significant change from the aims,
objectives, or purposes of the approved project. In these situations, the grantee must make the
initial determination of the significance of a change. The NIHGPS lists actions that may signal a
potential change in scope to assist grantees in identifying when to seek N IH prior approval.
Among those actions is the purchase ofa unit ofequipment e)(ceeding $25,000. Although this
may s ignal a potential change in scope, the grantee's initial determination was that the purchase
did not constitute a change in scope. The National Cancer Institute grants management and
program staff concurs with the grantee's determination; therefore, prior approval was not
required.
